Audit of Contracting Officers'
Independence at Selected USAID
Missions Overseas

Audit Report Number 9-000-02-002-P

January 10, 2002




                   Washington, D.C.
     U.S. AGENCY FOR




      INTERNATIONAL
       DEVELOPMENT

PERFORMANCE AUDIT DIVISION

January 10, 2002

MEMORANDUM
FOR:             M/OP, Mark S. Ward

FROM:            IG/A/PA Director, Dianne L. Rawl

SUBJECT:         Audit of Contracting Officers' Independence at Selected
                 USAID Missions Overseas (Report No. 9-000-02-002-P)

This is our final report on the subject audit. Your comments on the draft
report have been included, in their entirety, in Appendix II on page 11.

This report does not contain any recommendations for your action. I
appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                            1
Table of   Summary of Results                                                  3
Contents
           Background                                                          3

           Audit Objective                                                     4

                Did the organizational and reporting structures at selected
                USAID missions impair contracting officers’ independence in
                making procurement decisions?

           Audit Finding                                                       4

           Management Comments and Our Evaluation                              8

           Scope and Methodology (Appendix I)                                  9

           Management Comments (Appendix II)                                  11




                                                                                   2
Summary of   This audit was conducted at Congressional request to determine whether
Results      contracting officers’ (COs) independence in making procurement decisions had
             been impaired by organizational and reporting structures at selected USAID
             missions overseas. The audit found that the organizational and reporting
             structures did not impair COs’ independence in making procurement decisions
             (see page 4).

             The audit identified several operating structures and processes that both comply
             with Federal law, regulation, or agency policy and enhance the independence of
             contracting officers assigned to USAID missions, including:

                •   The placement of contracting officers at a level that ensures their
                    access to senior mission management and parity with other senior
                    managers involved with procurement decisions (see page 5).

                •   A process that solicits and considers input from multiple sources on
                    contracting officers’ performance (see page 5).

                •   The availability of the USAID Procurement Executive, located in
                    Washington, D.C., to provide input to procurement decisions and
                    performance evaluations (see page 5).

                •   The placement of contracting officers on Strategic Objective teams,
                    providing them frequent opportunities to advise USAID staff on
                    procurement requirements (see page 6).

             The Director of the Office of Procurement concurred with the findings of our
             report.




Background   Since the 1970s, USAID has refocused its responsibilities from directly
             implementing social sector projects to planning, financing, and monitoring
             such projects implemented by host countries, contractors, and grantees.
             USAID's dependence on its procurement staff is critical to the successful
             implementation and administration of its foreign assistance programs. As of
             August 2001, USAID employed 48 overseas contracting officers posted at 30
             separate missions. These contracting officers often operate in difficult
             environments and under evolving program demands.

             An essential consideration in every aspect of an acquisition system is
             maintaining the public's trust. Not only must the system have integrity, but also

                                                                                                 3
                  the actions of each member of the contracting team must reflect integrity,
                  fairness, and openness.1 Inherent to these attributes is the ability for contracting
                  officers to make procurement decisions in an independent manner and without
                  undue influence by senior management.

                  The head of each executive agency is responsible for establishing clear lines of
                  authority, accountability, and responsibility for procurement decision making
                  within their respective agency. This includes placing the procurement function
                  at a sufficiently high level in the executive agency to provide: (1) direct access to
                  the head of the major organizational element of the executive agency served, and
                  (2) comparative equality with organizational counterparts.2

                  USAID employs two different organizational management structures in its
                  placement of contracting officers. In USAID/Washington, contracting officers
                  are assigned to the Office of Procurement. Overseas, USAID’s senior
                  contracting officers report to senior mission management.




Audit Objective   In response to a Congressional inquiry, the Performance Audit Division of
                  OIG/Washington designed the audit to answer the following question:

                  Did the organizational and reporting structures at selected USAID missions
                  impair contracting officers’ independence in making procurement
                  decisions?

                  Appendix I contains a discussion of the scope and methodology for this audit.




Audit Finding     Did the organizational and reporting structures at selected USAID missions
                  impair contracting officers’ independence in making procurement
                  decisions?

                  The audit concluded that the organizational and reporting structures did not
                  impair contracting officers’ independence in making procurement decisions.

                  As discussed in more detail below, we identified several operating structures and
                  processes that enhance the independence of contracting officers assigned to
                  USAID missions.



                  1
                      Federal Acquisition Regulations 1.102-2 Performance Standards
                  2
                      41 USC Chapter 7 Office of Federal Procurement Policy
                                                                                                         4
Organizational Placement: Section 414, Title 41, United States Code,
requires that federal agencies place the procurement function at a level that
ensures its direct access to the head of the organizational element of the
executive agency that it is serving. In 1990, the General Accounting Office
(GAO) reviewed USAID's overseas contracting function and questioned the
independence of overseas contracting officers, in part because the function
was not placed at a sufficiently high level in the mission organization
structure. At the time of the GAO study, over 40 percent of USAID’s
overseas contracting officers reported to an official lower than the deputy
mission director. As a result, according to the then USAID Competition
Advocate, contracting officers were not: (1) in a position to participate equally
with other senior mission officers in program procurement decisions, and (2)
routinely included in meetings in which key procurement decisions were made.

In contrast to the relatively low-level organizational placement of overseas
contracting officers in 1990, we verified with 29 of the 30 missions, during our
audit, that there are no senior contracting officers reporting to a level lower than
the mission or deputy director. This arrangement appears to both meet the intent
of Section 414, Title 41 of the United States Code, and provide overseas
contracting officers the access and status they need to secure independence in
their operations.

Evaluation Process: To further enhance the independence of overseas
contracting officers, GAO recommended that the annual performance ratings of
these employees be reviewed and approved by USAID’s Procurement
Executive. By 2001, however, because of other changes in the agency-wide
employee evaluation process, routine intervention by the Procurement
Executive no longer appears necessary to secure the independence of overseas
contracting personnel.

USAID’s annual evaluation process for all employees, including contracting
officers, requires rating officials to obtain and consider comments from a
variety of sources, including the employee self-assessments, peers, members
of strategic objective teams, managers from other missions (if applicable), and
subordinates. During this audit, each of the 27 supervisory contracting
officers interviewed stated that the deputy mission director or mission director
prepared his or her annual performance evaluation and that the evaluation was
based on the 360 degree input process. Feedback from multiple sources not
only provided information about the contracting officers' performance on
negotiated work objectives and general skill areas, it also reduced the potential
for one person’s bias to skew into the employee’s performance evaluation.

Role of the Procurement Executive: Executive Order 12931 requires
USAID's Procurement Executive to: (1) oversee the development of
procurement goals, guidelines, and innovation, and (2) measure and evaluate
procurement office performance against stated goals. To implement the

                                                                                    5
evaluation requirement, USAID's Procurement Policy Evaluation and Support
Division periodically evaluated the contracting system of each procurement
office, typically on a three-year cycle.

Evaluations consisted of a combination of:

    •   Extensive interviews with the contracting officers to assess how
        procurement actions were managed;

    •   Detailed interviews with the missions' executive officers;

    •   Interviews with strategic team leaders, controllers, program personnel
        and the missions' Competition Advocate;

    •   In-depth reviews of the procurement process from initial planning
        through competition, selection, award and administration;

    •   Reviews of a sample of individual contract and assistance awards; and

    •   Exit briefings to mission directors on specific areas and/or trends
        observed by the evaluation team for correction and/or improvement.

Auditors reviewed the working papers and evaluation reports prepared by the
Procurement Policy Evaluation and Support Division for 16 missions during a
21-month period. The auditors found no indication in these files and reports
of any instance in which the independence of any contracting officer in any
procurement action had been questioned.

In our opinion, these internal technical evaluations are a valuable internal
control that reviews the quality of work performed by USAID’s contracting
officers, reminds mission directors of their responsibilities for the integrity of
the contracting activities for which they are responsible, and, through the
threat of disclosure of irregularities, provides a deterrent to potential efforts to
exert undue influence on contracting officers.

In addition, the auditors’ interviews confirmed that overseas contracting
officers believe they are able to call upon the USAID Procurement Executive
to intervene in procurement decisions, and that this option provides additional
protection from undue influence by senior management.

Team Approach: USAID policy requires the head of each Operating Unit to
establish a strategic objective team to plan and manage activities aimed at
achieving each approved strategic objective. The contracting officers
participate with the teams in managing the development and procurement
activities. In addition to the stated benefits of enhancing the delivery of

                                                                                   6
                development assistance, these actions serve to enhance the independence of
                the contracting function.

                Auditors interviewed 30 contracting officers posted at 29 of the 30 missions
                where USAID assigned contracting officers. The contracting officers stated
                that their level of involvement in team activities varied according to the
                complexity and significance of the procurement issues that surfaced. In some
                cases they simply provide advice, in other situations they might draft
                extensive documents. The contracting officers also stated that each of the
                missions they supported used procurement plans. They said that, although
                they initiated the procurement plans, most decisions concerning the
                procurement plans were a collaborative effort with the strategic objective
                teams. However, the contracting officers stated that they have the final
                authority on all procurement-related decisions and will exercise that authority
                if required. Because of their involvement on these teams, contracting officers
                were able to routinely provide advice and guidance to mission officials to
                ensure compliance with regulatory laws and USAID policies. Contracting
                officers believed that knowledgeable mission officials were less likely to take
                or recommend inappropriate actions that could be considered an attempt to
                impair the independence of the procurement function.

                Conclusion: In the auditors’ opinion, a collection of processes or
                organizational structures required by law, regulation or policy, serve to help
                USAID’s overseas contracting officers preserve their independence. These
                include:

                  •   The placement of contracting officers at a level that ensures their access
                      to senior mission management and parity with other senior managers
                      involved with procurement decisions.

                  •   A process that solicits and considers input from multiple sources on
                      contracting officers’ performance.

                  •   The availability of the USAID Procurement Executive, located in
                      Washington, D.C., to provide input to procurement decisions and
                      performance evaluations.

                  •   The placement of contracting officers on Strategic Objective teams,
                      providing them frequent opportunities to advise USAID staff on
                      procurement requirements.




Other Matters   During our interviews, some contracting officers cited a problem that,
                although not an impairment to their independence, was an impediment to the
                                                                                                 7
             procurement process. When asked whether senior management and strategic
             objective team members understood the legal and ethical responsibilities
             underlying the procurement function, the majority of those interviewed
             believed that they did. However, some contracting officers believed that there
             was a continual need to educate officials designated as cognizant technical
             officers (CTOs) as to their roles and responsibilities in contract and assistance
             administration.

             Eight of the 30 contracting officers interviewed stated CTOs needed more
             training to fulfill their designated responsibilities. They described situations
             when the technical office and the contracting function had different agendas,
             which caused conflicts. Some said that, because they were ultimately
             responsible for the procurement actions and ensuring compliance with USAID
             and procurement regulations, they had found it necessary to perform program
             responsibilities that should have been performed by CTOs. They added that
             CTOs either did not understand what was required of their positions, or
             sometimes chose not to do it.



Management   The Director of the Office of Procurement concurred with the findings of our
Comments     report. This report does not contain any recommendations. Management's
             comments are included in their entirety in Appendix II.
and our
Evaluation




                                                                                             8
                                                                                  Appendix I

Scope and     Scope
Methodology
              The Performance Audit Division of the Office of Inspector General conducted
              an audit to determine whether contracting officers’ independence in making
              procurement decisions had been impaired by organizational and reporting
              structures at selected USAID missions. The audit was conducted in accordance
              with generally accepted government auditing standards. Audit fieldwork was
              conducted between August 2001 and October 2001 at USAID/Washington. In
              addition, telephone interviews were conducted with USAID overseas
              contracting officers.

              The scope of this audit was designed to:

                 •    Follow-up with a prior GAO recommendation in its October 1990
                      GAO/NSIAD-91-31 report recommending that:

                             USAID enhance the independence of overseas
                             contracting officers by requiring that annual
                             performance ratings of overseas contracting
                             officers be reviewed and approved by USAID's
                             Procurement Executive.
                 •    Review the organizational and reporting structures for contracting
                      officers at selected overseas missions.

                 •    Obtain feedback from selected overseas contracting officers on whether
                      the reporting and job performance evaluation processes at their missions
                      enable them to perform their responsibilities in an independent manner.

                 •    Identify and determine USAID's compliance with laws, regulations,
                      and policies designed to ensure the independence of contracting
                      officers.

              Methodology

              To accomplish the audit objective, we reviewed USAID's Office of
              Procurement's Policy Evaluation and Support Division's contracting evaluation
              files and reports issued for 16 reviews performed over a 21-month period. The
              Policy Evaluation and Support Division conducted these reviews in response to
              Executive Order 12931 of the President's Federal Procurement Reforms, which
              requires U.S. Government Agency Procurement Executives to develop a system
              for evaluating the Agency's contracting system against approved criteria and to
              advise the head of the Agency that the system met the criteria. The objective of


                                                                                             9
this audit procedure was to determine if internal procurement evaluations had
identified instances in which the independence of any contracting officer in any
procurement action had been questioned.

Furthermore, we interviewed (via telephone) contracting officers located at 29
missions. We judgmentally sampled 30 officers representing 63 percent of the
48 assigned overseas. Twenty-seven of the 30 served as the missions'
supervisory contracting officer. The remaining three served in non-supervisory
positions.

To facilitate the interview, we designed a questionnaire comprised of 17
questions focusing on various aspects of the contracting officers' roles and
responsibilities. The questions provided insight within the following areas:

   •   The degree of independence that contracting officers had to manage
       procurement workload across multiple missions;

   •   The contracting officers' role and responsibilities on strategic objective
       teams and with procurement planning;

   •   The degree of involvement by senior management in procurement
       decisions;

   •   How disagreements between contracting officers and senior
       management were handled and the consequences that resulted;

   •   The degree to which senior management and team members
       understood the contracting officers' legal and ethical responsibilities;
       and

   •   The contracting officers' reliance and frequency of utilizing the
       Washington, D.C. Office of Procurement staff for assistance, and how
       often the Procurement Executive Officer provided input for annual
       evaluations.

The participants interviewed were given the opportunity to review their
responses, as interpreted by the auditor, and provide clarification or additional
comments, which were incorporated into the final questionnaires.




                                                                                    10
                                                                                 Appendix II

Management
Comments




  U.S. AGENCY FOR
   INTERNATIONAL
   DEVELOPMENT

                                                   January 7, 2002

 MEMORANDUM


 TO:           IG/A/PA Director, Dianne L. Rawl

 FROM:         M/OP, Mark S. Ward

 SUBJECT:      Draft Report on Audit of Contracting Officers' Independence at Selected
               USAID Missions Overseas

 Thank you for the opportunity to review the draft. I am pleased to see that the audit
 findings indicate that current organizational and reporting structures do not impair
 Contracting Officers' independence in making procurement decisions. This confirms our
 understanding based on the procurement system reviews by M/OP's Evaluation Division.
 I appreciate the information concerning the need for CTO training as well.




                            1300 PENNSYLVANIA AVENUE, N.W.
                               WASHINGTON, D.C. 20523


                                                                                               11
